               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Postal Service Board of Governors’
    Travel and Miscellaneous Expenses
            for Fiscal Year 2011

                       Audit Report




                                              December 6, 2011

Report Number FT-AR-12-004
                                                                       December 6, 2011

                                             Postal Service Board of Governors’ Travel
                                                          and Miscellaneous Expenses
                                                                   for Fiscal Year 2011

                                                           Report Number FT-AR-12-004



IMPACT ON:
The Board of Governors’ (Board) travel         external professional fees totaling
and miscellaneous expenses and                 $1.4 million were properly supported,
external professional fees for fiscal year     reasonable, and in compliance with
2011.                                          U.S. Postal Service polices and
                                               procedures and Board policies.
WHY THE OIG DID THE AUDIT:
We conducted this audit in response to         WHAT THE OIG RECOMMENDED:
a Board resolution requiring annual            Based on the results, we are not making
audits of its expenses. Our objective          any recommendations.
was to determine whether travel and
miscellaneous expenses (including              WHAT MANAGEMENT SAID:
external professional fees) of the Board       We provided a copy of this report to
were properly supported, reasonable,           management on November 16, 2011,
and in compliance with U.S. Postal             and since there are no
Service policies and procedures and            recommendations, management chose
Board policies.                                not to respond formally to this report.

WHAT THE OIG FOUND:
Travel and miscellaneous expenses              Link to review the entire report
totaling approximately $163,000 and
December 6, 2011

MEMORANDUM FOR:            JULIE S. MOORE
                           SECRETARY OF THE BOARD OF GOVERNORS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Postal Service Board of Governors’ Travel
                           and Miscellaneous Expenses for Fiscal Year 2011
                           (Report Number FT-AR-12-004)

This report presents the results of our audit of the Board of Governors’ travel and
miscellaneous expenses for fiscal year 2011 (Project Number 11BG007FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Timothy F. O’Reilly
    Jack L. Meyer
    Corporate Audit and Response Management
Postal Service Board of Governors’ Travel and                                                                           FT-AR-12-004
 Miscellaneous Expenses for Fiscal Year 2011


                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Appendix A: Additional Information..................................................................................... 2

   Background ...................................................................................................................... 2

   Objective, Scope, and Methodology ............................................................................... 2

   Prior Audit Coverage ....................................................................................................... 3
Postal Service Board of Governors’ Travel and                                 FT-AR-12-004
 Miscellaneous Expenses for Fiscal Year 2011


Introduction

This report presents the results of our audit of the Board of Governors’ (Board) travel
and miscellaneous expenses for fiscal year (FY) 2011 (Project Number
11BG007FT000). We conducted this audit in response to a Board resolution requiring
annual audits of the Board’s expenses. Our objective was to determine whether the
travel and miscellaneous expenses of the Board, including external professional fees,
were properly supported, reasonable, and in compliance with U.S. Postal Service
policies and procedures and Board policies. This audit addresses financial risk. See
Appendix A for additional information about this audit.

The Postal Reorganization Act of 1970, as amended, established the Board, which is
comprised of the postmaster general, deputy postmaster general, and nine governors
appointed by the president. The Board directs and controls the expenditures of the
Postal Service, reviews its practices and policies, and establishes objectives and goals
in accordance with Title 39 of the U.S. Code.

Conclusion

Travel and miscellaneous expenses totaling approximately $163,000 and external
professional fees totaling $1.4 million were properly supported, reasonable, and in
compliance with U. S. Postal Service and Board policies. In comparison, FY 2010 travel
and miscellaneous expenses and external professional fees were approximately
$136,000 and $8,000, respectively. The increase in travel and miscellaneous expenses
was due to an increase in Board meetings from 28 in FY 2010 to 41 in FY 2011. The
significant increase in external professional fees was for a consulting contract for
professional services to assist in identifying a viable business model for the Postal
Service. Based on the results of this audit, we are not making any recommendations,
and management chose not to respond formally to this report.




                                                1
Postal Service Board of Governors’ Travel and                                                          FT-AR-12-004
 Miscellaneous Expenses for Fiscal Year 2011



                                 Appendix A: Additional Information

Background

The Postal Reorganization Act of 1970, as amended, established the Board, which is
comprised of the postmaster general, deputy postmaster general, and nine governors
appointed by the president. As of September 30, 2011, the Board consisted of the
postmaster general, the deputy postmaster general, and seven governors. 1

The Board directs and controls the expenditures of the Postal Service, reviews its
practices and policies, and establishes objectives and goals in accordance with Title 39
of the U.S. Code. On July 8, 1986, the Board passed Resolution Number 86-12, which
requires annual audits of the Board’s expenses.

The Board generally meets monthly in Washington, D.C., or another location where
members can visit Postal Service facilities or larger mailer operations. In FY 2011, 2 the
Board held 41 meetings 3 and incurred approximately $163,000 in travel and
miscellaneous expenses and $1.4 million in external professional fees.4

Objective, Scope, and Methodology

Our objective was to determine whether the travel and miscellaneous expenses of the
Board, including external professional fees, were properly supported, reasonable, and in
compliance with Postal Service policies and procedures and Board policies. We
reviewed all 87 Board 5 travel reimbursements processed under finance number 101099
through the Oracle Accounts Payable System for travel and miscellaneous expenses
incurred during FY 2011. We also reviewed all Board external professional fees 6
incurred during the same period.

We conducted this performance audit from January through December 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Our tests of controls were
limited to those necessary to achieve our audit objective. Our procedures were not

1
  There were two vacancies on the Board as of September 30, 2011.
2
  October 1, 2010, to September 30, 2011.
3
  Meetings include full Board regular, annual, and special meetings and committee meetings, but not other official
functions such as stamp dedication ceremonies. A governor may participate by telephone in these meetings and,
thus, not incur travel cost.
4
  External professional fees represent payments to a consulting firm for a professional services contract.
5
  The postmaster general and deputy postmaster general’s travel and representation expenses are not included in
the scope of this audit. They are included in the scope of the Postal Service officers’ travel and representation
expense audit.
6
  External professional fees are part of Professional and Miscellaneous services.


                                                          2
Postal Service Board of Governors’ Travel and                                             FT-AR-12-004
 Miscellaneous Expenses for Fiscal Year 2011


designed to provide assurance on internal controls. Consequently, we do not provide an
opinion on such controls. Also, our audit does not provide absolute assurance of the
absence of fraud or illegal acts, due to the nature of evidence and characteristics of
such activities. We provided a copy of this report to management on
November 16, 2011, and since there are no recommendations, they chose not to
respond formally to this report.

We assessed the reliability of the Oracle Accounts Payable System data by tracing
selected financial information to supporting source documentation. For example, we
verified Board travel payments recorded in the Oracle Accounts Payable System to
original travel reimbursements. We determined that the data were sufficiently reliable for
the purposes of this report.

Prior Audit Coverage

                                                 Final
                            Report              Report
     Report Title           Number               Date            Report Results
  Postal Service          FT-AR-11-004      12/6/2010    Travel and miscellaneous
  Board of Governors’                                    expenses totaling $136,353 and
  Travel and                                             external professional fees totaling
  Miscellaneous                                          $8,226 were properly supported,
  Expenses for Fiscal                                    reasonable, and in compliance
  Year 2010                                              with Postal Service and Board
                                                         policies. We did not make any
                                                         recommendations.
  Postal Service          FT-AR-10-002      11/5/2009    Travel and miscellaneous
  Board of Governors’                                    expenses totaling $226,339 and
  Travel and                                             external professional fees totaling
  Miscellaneous                                          $58,245 were properly supported,
  Expenses for Fiscal                                    reasonable, and in compliance
  Year 2009                                              with Postal Service and Board
                                                         policies. We did not make any
                                                         recommendations.
  Postal Service          FT-AR-09-003      11/21/2008   Travel and miscellaneous
  Board of Governors’                                    expenses totaling $116,241 and
  Travel and                                             external professional fees totaling
  Miscellaneous                                          $6,703 were properly supported
  Expenses for Fiscal                                    and in compliance with Board
  Year 2008                                              polices. However, we identified an
                                                         internal control issue pertaining to
                                                         the purchase and approval of
                                                         professional services. The Board
                                                         office took corrective action so we
                                                         did not make any
                                                         recommendations.




                                                    3
